<html>
<title> - EXAMINING THE SHIPMENT OF ILLICIT DRUGS IN INTERNATIONAL MAIL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



     EXAMINING THE SHIPMENT OF ILLICIT DRUGS IN INTERNATIONAL MAIL

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 7, 2017

                               __________

                           Serial No. 115-38

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-742 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>                        
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
                          Mary Doocy, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 7, 2017................................     1

                               WITNESSES

The Hon. Gregory Thome, Director, Office of U.N. Specialized and 
  Technical Agencies, Bureau of International Organization 
  Affairs, U.S. Department of State
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Guy Cottrell, Chief Postal Inspector, United States Postal 
  Service
    Oral Statement...............................................    11
    Written Statement............................................    13
Mr. Todd C. Owen, Executive Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection
    Oral Statement...............................................    20
    Written Statement............................................    22
Ms. Lori Rectanus, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office
    Oral Statement...............................................    30
    Written Statement............................................    32
Ms. Tammy Whitcomb, Acting Inspector General, U.S. Postal 
  Service, Office of the Inspector General
    Oral Statement...............................................    43
    Written Statement............................................    45

 
     EXAMINING THE SHIPMENT OF ILLICIT DRUGS IN INTERNATIONAL MAIL

                              ----------                              


                      Thursday, September 7, 2017

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 3:12 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Jody Hice 
presiding.
    Present: Representatives Hice, Meadows, Jordan, Blum, 
Connolly, Norton, Clay, and Lawrence.
    Mr. Hice. The Subcommittee on Government Operations will 
come to order.
    Let me first of all just say thank you for your patience, 
all of you. Sometimes around here we never know when votes are 
going to occur, and we thought we would be able to start around 
2:00, so your patience is greatly appreciated. I am sure we 
will have some other members show up along the way, but we will 
go ahead and get started.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Again, I welcome you here today to discuss this very 
important issue. Last year, 62,000 Americans died from drug 
overdoses. That is a staggering number. More than died in both 
Vietnam and Iraq wars combined. The opioid crisis is the 
deadliest drug epidemic in American history, and it only 
continues to worsen.
    In my home State of Georgia, opioids are the main cause of 
overdose deaths. Almost as many Georgians die annually from 
drug overdose as do from car accidents. In 2015, 55 of the 
counties in Georgia out of 159 counties had a higher drug 
overdose rate than the U.S. average. That is a significant 
uptick from just 11 years ago when only 26 Georgia counties 
were higher than the U.S. average.
    In May, a mass overdose swept through Georgia, took a lot 
of the hearts and emotions of the people of Georgia. There were 
four people who died within a 48-hour period of time of taking 
pills that they thought were Percocet. Tragically, this is only 
one example of the many incidents that have occurred in recent 
years due to our country's insatiable desire for drugs.
    While the United States makes up about 5 percent of the 
world's population, we consume an overwhelming share of the 
world's pain medication. With any drug epidemic, supply 
reduction is an essential element to drug control, be it 
domestic or international.
    When it comes to our nation's opioid epidemic, the ability 
to purchase drugs with just one click of a computer and have 
those drugs brought to this country is easy for most anyone to 
accomplish. Americans are now able to easily purchase powerful 
synthetic opioids, particularly from China, and have them 
shipped straight to their doorstep here in the United States 
via the United States Postal Service.
    Despite the billions of dollars our country spends each 
year on personnel, technology, and infrastructure to protect 
our southern borders, the U.S. Postal Service allows 
international packages to enter our country virtually 
unchecked. Because the U.S. Postal Service is not required to 
follow the same customs standards as its private competitors, 
it has become an attractive courier for international drug 
traffickers.
    With the rise of e-commerce, the volume of inbound 
international mail has exploded to hundreds of millions of 
pieces each year. This massive volume, coupled with lax 
security standards, has created a significant security 
weakness, which often results in a failure to detect drugs 
shipped through the Postal Service.
    So, today, we are going to learn about how the U.S. Postal 
Service's lax security standards have led to an influx of 
illicit drugs entering our country. We will also explore ways 
in which the U.S. Postal Service can close that security gap 
between the mail service and the private competitors.
    The U.S. Postal Service has already taken steps for which 
we are grateful, such as increased collection of electronic 
advanced data to heighten security of inbound international 
mail. They have also embarked on pilot programs in partnership 
with CBP to target certain mail for inspection. And while these 
pilot programs are a step in the right direction, the postal 
inspector general and GAO have found that there is substantial 
room for improvement, so we look forward to their testimony 
here today.
    We will also hear from CBP and the U.S. Postal Inspection 
Service about procedures that have been effective in thwarting 
contraband from entering our country, as well as what 
procedures could be effective in the future.
    The majority of illicit synthetic opioids from China enter 
the United States via the Postal Service under the terms 
governed by the United Nations' Universal Postal Union Treaty. 
Today, we will hear from the State Department about 
international efforts to stop illicit drugs from being sent 
through the mail.
    As the number of Americans overdosing and dying from these 
drugs continues to rise, it is important that we act now, so I 
look forward to hearing from our witnesses today as we explore 
how we can work together to stop the supply of illicit drugs 
entering our country and better fight our nation's drug 
epidemic.
    Mr. Hice. When the ranking member arrives, he will be 
allowed time for his opening statement, but for now, let me 
introduce our panel of witnesses, after which each of you will 
have an opportunity to give your opening statement.
    I am pleased to welcome Mr. Gregory Thome, director of the 
Office of U.N. Specialized and Technical Agencies at the State 
Department; Mr. Guy Cottrell, is that correct?
    Mr. Cottrell. Yes.
    Mr. Hice. Chief postal inspector for the United States 
Postal Service; Mr. Todd Owen, executive assistant commissioner 
at the U.S. Customs and Border Protection agency; Ms. Lori 
Rectanus, director for Physical Infrastructure Issues that the 
Government Accountability Office; and Ms. Tammy Whitcomb, 
acting inspector general for the United States Postal Service.
    All of you, we welcome you here. And, Mr. Cottrell, I 
understand that you have someone with you today, is that 
correct?
    Mr. Cottrell. Yes, sir.
    Mr. Hice. Okay. Could you please introduce that person?
    Mr. Cottrell. Yes. It's Robert Raines. He is a postal 
operations manager just in case there are any technical 
operations questions.
    Mr. Hice. Okay. And where is Robert?
    Okay, sir. Thank you, and welcome.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you would please each of you rise 
and raise your right hand.
    [Witnesses sworn.]
    Mr. Hice. The record will reflect that all witnesses have 
answered in the affirmative.
    Thank you, you may be seated.
    Are you ready for your opening statement or do you want to 
----
    Mr. Connolly. I do. I do.
    Mr. Hice. Okay. All right. Yes.
    Mr. Connolly. Thank you.
    Mr. Hice. All right. We are going to begin with your 
opening statements in here in just a moment. The ranking 
member, Mr. Connolly, has arrived, so I will yield to him for 
his opening statement.
    Mr. Connolly. Thank you, Mr. Chairman. I am sorry to keep 
people waiting. We had 10 votes, and I got a little delayed on 
the Floor.
    But thank you for having this hearing, and thank you all 
for being here.
    Opioid abuse is now one of the biggest public health 
threats we face as a nation, and that threat is growing 
exponentially and in a frightening way. According to data 
released just a few days ago by the National Center of Health 
Statistics, more than 64,000 Americans died from drug overdoses 
in 2016. This figure is an increase of more than 20 percent 
over the previous year. This data shows that synthetic opioids 
like fentanyl now cause more deaths than any other type of 
drug.
    According to the Center for Health Statistics, death from 
synthetic opioids doubled from 2015 to 2016 to just over 
20,000. A New York Times headline this weekend proclaimed that 
deaths from fentanyl have increased by 540 percent over the 
last three years alone.
    In my native State of Virginia, deaths from synthetic 
opioids rose from 263 in 2015 to 692 one year later. And sadly, 
Virginia is hardly alone among States in seeing deaths from 
opioids double or triple in that time period.
    Commission on Combating Drug Addiction and the Opioid 
Crisis, headed by Governor Christie of New Jersey, recently 
warned, and I quote, ``We are miserably losing this fight to 
prevent fentanyl from entering our country and killing our 
citizens. The commission emphasized to President Trump that 
``The first and most urgent recommendation of the commission is 
direct and completely within your control, Mr. President. 
Declare a national emergency.'' President Trump held a news 
conference in which he said the words the opioid crisis is an 
emergency, but he hasn't declared it as such, a national 
emergency.
    Among many other thoughtful recommendations, the Christie 
commission urged the government to intercept fentanyl and other 
synthetic opioids in envelopes and packages at mail processing 
distribution centers across the country. The Federal agency 
responsible for preventing fentanyl from coming into this 
country through international mail and express consignment 
packages like FedEx and UPS is the Customs and Border 
Protection agency. CBP is statutorily required, and I quote, 
``to ensure the interdiction of persons and goods illegally 
entering or exiting the United States.'' CBP inspects inbound 
international mail received by the United States Postal 
Service. CBP inspects inbound international express commercial 
packages at express consignment carrier hubs.
    According to data provided by CBP to our staff prior to 
this hearing, the greatest increases in the rates of seizure of 
fentanyl have been in the mail and express consignment 
packages. Right now, however, CBP does not appear to know if it 
is using the most effective tools to find fentanyl in 
international mail and packages.
    The GAO will warn us today that for one targeting method, 
the use of advanced data on mail and express shipments, CBP has 
not done the analysis necessary to evaluate its effectiveness 
and this targeting method relative to other methods.
    Troubling is that customs may not be using all available 
data to target mail for inspection and investigation and may be 
targeting only a small number of packages per day and may not 
even be targeting whole classes of mail. In fact, using 
existing data already collected by the Postal Service, the 
Postal Service's inspector general recently linked a package 
intercepted by CBP that contained fentanyl to hundreds of 
additional packages that likely contained fentanyl but were 
apparently allowed to enter into the United States. This could 
point to a potentially much bigger problem wherein CBP is 
failing systematically to uncover those illicit shipping 
networks.
    Given the urgent and growing threat that fentanyl and other 
synthetic opioids pose to the United States, as well as the 
recommendation of the Christie commission to increase our 
ability to detect and interdict drugs inbound and international 
mail and express consignments using enhanced technology, more 
manpower, and expanded canine deployment, it is critical that 
we ascertain which methods of interdicting drugs on inbound 
mail and consignments are most effective and replicating them.
    One thing is clear, however, and that is that President 
Trump's proposed wall won't stop the most dangerous drugs from 
coming into the United States. Effective targeting methods are 
what we need and will have to be expanded and enhanced if we 
are going to win this battle. I know we are going to do it on a 
bipartisan basis.
    I look forward to hearing from CBP particularly on how it 
plans to address current deficiencies in its interdiction 
efforts and lessons learned and help turn the tide of this 
incredible public health crisis.
    Thank you, Mr. Chairman.
    Mr. Hice. I thank the gentleman.
    The witnesses have been introduced and sworn in, so we are 
ready for your opening testimonies. In order to allow time for 
discussion, please limit your testimony to five minutes. Your 
entire written testimony and statement will be made part of the 
record.
    As a reminder, two things: Press the button for your 
microphone, and please pull your microphone up so that we can 
hear you clearly as you are speaking. The clock in front of you 
will show your time. It will turn yellow about 30 seconds, and 
red, it is time to land the plane. So we are again glad to have 
you.
    And, Mr. Thome, you are recognized for five minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF GREGORY THOME

    Mr. Thome. Chairman Hice, Ranking Member Connolly, members 
of the subcommittee, thank you for the invitation to appear 
before you today to discuss the shipment of illicit drugs in 
the international mail, as well as the differences between 
international mail and private express shipments as they relate 
to abuse of the mail by traffickers.
    The Department of State take these matters very seriously. 
And while international mail is only one of the avenues 
traffickers may try to exploit, we are making concerted efforts 
in cooperation with the U.S. Postal Service and U.S. CBP to 
make reforms to the system of global mail exchange that will 
improve security and support drug interdiction.
    The Department has statutory responsibility for the 
formulation, coordination, and oversight of international 
postal policy. The Universal Postal Union, or UPU is the 
principal venue where we discharge this responsibility, working 
closely with both the Postal Service and American express 
delivery services such as UPS and FedEx.
    Like our partners, the Department is aware that the 
exchange of advanced electronic data, or AED, can help mitigate 
the risk posed by traffickers. However, in considering a policy 
response that would best serve all stakeholders, it is 
important to bear in mind the fundamental differences between 
USPS and private express companies.
    First, because of U.S. national treaty obligations as a 
member of the UPU, USPS must receive mail items from 191 
foreign postal operators. This means it has limited ability to 
collect AED or otherwise control the mail items it receives 
until they are tendered to it in the United States. Private 
express companies, in contrast, control collection and delivery 
of the items they transport, as well as the entire logistics 
chain in between.
    Second, USPS engages in international mail exchange as the 
designated operator of the United States, meaning it cannot, 
except in very rare cases, refuse mail, and it must guarantee 
delivery to any address in the United States. Private express 
companies, on the other hand, have no universal service 
obligation and are free to pick and choose their customers, 
accepting only the mail they judge to be reliable.
    Third, there is a wide discrepancy between the ability to 
collect AED. Express carriers can unilaterally impose data 
collection requirements on their overseas customers whereas 
USPS cannot and must instead convince 191 postal services of 
the benefit and the security that providing AED will offer.
    While these differences pose challenges, the good news is 
that postal services worldwide are now eager and determined to 
collect and exchange AED. Postal operators see that delays 
caused by customs processing are a major impediment to their 
ability to grow their business. They know they need to 
interface more swiftly with mailers and transport companies, 
and their customers increasingly demand the ability to track 
packages in real time and to easily exchange merchandise. Use 
of AED is the only solution to these business challenges.
    The UPU has become a partner to the United States in 
championing the increased use of AED both for business and 
security reasons. In 2012, the U.S. successfully secured 
amendments to the UPU convention that committed each member to 
a security strategy that includes complying with requirements 
for AED. Indeed, the UPUs recently adopted business plan calls 
for all postal services worldwide to have the capability to 
exchange data in place by the end of 2020. And we anticipate 
that the UPU will give final approval for an advanced 
electronic data messaging standard this October.
    As significant as these achievements are, there are still 
obstacles to overcome. The main impediment to widespread 
exchange of AED is the very limited ability of most countries' 
postal services to collect and transmit it. Many post offices 
in the developing world do not have internet or even reliable 
sources of electricity. This makes collection and transmission 
of data for postal items extremely difficult. Even in developed 
countries, most postal services do not yet have the needed 
infrastructure for item-level data exchange. Indeed, few if any 
countries now have the capacity to provide it for 100 percent 
of their mail requiring customs declaration.
    Nevertheless, the tide has turned. Postal services around 
the world understand the need to incorporate AED into the 
fabric of global mail exchange not just because the U.S. and 
other countries are beginning to require it but because it is 
essential to their business models. This is why USPS is 
successfully expanding its network of pilot projects, and this 
is why we are witnessing a rapid increase in the flow of AED 
for premium products worldwide.
    In closing, we are confident that the number of countries 
able to provide AED and the proportion of their mail streams 
that it covers will continue to grow. I want to assure the 
subcommittee that the State Department will spare no effort in 
working to further accelerate this process.
    Thank you, Mr. Chairman, and I look forward to answering 
your questions.
    [Prepared statement of Mr. Thome follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. Thank you very much.
    Mr. Cottrell, you are recognized for five minutes.

                   STATEMENT OF GUY COTTRELL

    Mr. Cottrell. Good afternoon, Chairman Hice, Ranking Member 
Connolly, and members of the subcommittee. Thank you for 
calling this hearing on drug trafficking and security standards 
used by the U.S. Postal Service and private carriers. My name 
is Guy Cottrell. I'm the chief postal inspector for the United 
States Postal Inspection Service. In this role, I oversee the 
law enforcement arm of the Postal Service. Our mission is to 
support and protect the Postal Service and its employees, 
infrastructure, and customers.
    As one of America's oldest Federal law enforcement 
organizations, the more than 2,700 men and women of the Postal 
Inspection Service enforce the laws that defend the Nation's 
mail system from illegal or dangerous use and ensure public 
trust in the mail. To that end, the investigation of contraband 
in international mail is among the highest priorities of the 
Inspection Service, and we play an active role in the national 
effort to address the problem of fentanyl and synthetic opioid 
distribution. We work closely with Federal and local law 
enforcement partners on criminal investigations, information-
sharing, and we used data analysis to target inbound 
international mail.
    We have continually evolved our methods, expanded 
resources, and strengthened strategic law enforcement 
partnerships. As a result, we have seen significant 
improvements in our ability to seize fentanyl and synthetic 
opioids from the mail. From fiscal year 2016 through August of 
fiscal year 2017, we have achieved a 3-1/2-fold increase in 
international parcel seizures and an eight-fold increase in 
domestic parcel seizures related to synthetic opioids.
    As we continue to utilize and develop our available 
resources to identify illicit drugs located in the United 
States and take appropriate action, we will continue to enhance 
investigative techniques and data analytics to better forecast 
and target incoming parcels in order to seize fentanyl and 
synthetic opioids sent through the mail.
    Mr. Chairman, the Postal Service, in collaboration with the 
State Department and Customs and Border Protection, plays a 
leadership role in advocating for the global collection and 
exchange of advanced electronic data, or AED, on international 
mail. Through negotiation and advocacy and by targeting those 
countries of interest identified by customs which are known to 
be sources of illicit opioids, inbound AED has grown rapidly in 
the past few years.
    Most international mail currently arrives in the United 
States at one of five international service centers. The 
Inspection Service's investigative authority begins once 
inbound mail is released from the first point of entry by our 
customs counterparts. While AED is used to strengthen our 
investigations and identify trends, operation methodologies, 
and potential suspects, we consider AED only one part of a 
multilayered approach the Inspection Service takes regarding 
contraband interdiction.
    To be successful in thwarting the international drug trade, 
cooperation and teamwork between law enforcement agencies is 
critical. Information-sharing is an invaluable asset at the 
importation and street level and everywhere in between. 
Utilizing technology, maximizing the effectiveness of 
operational processes, and infusing this information with real-
time intelligence is critical to the efforts of combating 
fentanyl and synthetic opioid distribution.
    For those items for which AED is furnished, customs has an 
enhanced ability to target items for inspection. The Postal 
Service currently receives data on a substantial amount of 
inbound shipments, including those originating in China. The 
percentage of inbound items with AED is expected to continue to 
grow, especially as we expand partnerships with commercial 
providers and as more countries develop their capacities.
    Mr. Chairman, the Postal Inspection Service, working with 
our law enforcement partners and Postal Service management, is 
committed to preventing illicit items from entering the Nation 
alongside legitimate commerce and communication. We stand 
alongside those agencies that share our mission to combat 
illegal drugs and contraband. We additionally concur with the 
recommendations of the Government Accountability Office to 
further assess the value of AED in support of national 
investigation and interdiction efforts.
    The Postal Service and the Postal Inspection Service will 
continue to take all practicable measures to ensure the 
security of our nation's mail and provide the American public 
the best, most efficient service possible.
    Again, I thank you for this opportunity to testify, and I 
look forward to your questions.
    [Prepared statement of Mr. Cottrell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. I thank the gentleman.
    Mr. Owen, you are recognized for five minutes.

                   STATEMENT OF TODD C. OWEN

    Mr. Owen. Good afternoon. Vice Chairman Hice, Ranking 
Member Connolly, distinguished members of the subcommittee, 
thank you for the opportunity to appear today to discuss the 
role of U.S. Customs and Border Protection in combating the 
flow of dangerous illicit drugs into the United States 
specifically through international mail and express courier 
facilities.
    Before I provide my formal comments on the topic of today's 
hearing, I would first like to publicly recognize the men and 
women of U.S. Customs and Border Protection who responded to 
the Houston area in the aftermath of Hurricane Harvey to assist 
in the rescue and recovery efforts. Over 600 CBP air and marine 
interdiction agents, Border Patrol agents, and Customs and 
Border Protection officers with 50 vessels and 25 aircraft 
responded under very dangerous and very challenging conditions 
and rescued 1,362 people. And as Hurricane Irma takes aim at 
the U.S. mainland, CBP stands ready again to provide assistance 
and any necessary rescue and recovery efforts.
    As the unified border security agency of the United States, 
CBP plays a critical role in our nation's efforts to keep 
dangerous drugs from entering our communities. CBP's Office of 
Field Operations interdicts drugs and other dangerous items at 
our ports of entry, including multiple mail and express courier 
facilities, by leveraging advanced data, automated targeting, 
and intelligence-driven strategies, and using various types of 
detection technology as part of our multilayered risk-based 
approach to enhance the security of our borders.
    In fiscal year 2016, across the Nation, CBP seized more 
than 3.3 million pounds of narcotics. While most smuggling 
attempts occur at the Southwest border ports of entry, 
smuggling in the mail and express courier environments is a 
growing threat, especially the smuggling of illicit synthetic 
drugs such as fentanyl. Each day, over 1 million packages 
arrive into our international mail and express courier 
facilities. With the explosion of e-commerce, these volumes 
continue to grow.
    Upon arrival, every package is screened through radiation 
detection equipment for the presence of radioactive materials. 
And thanks to the support of Congress, CBP has made significant 
investments and improvements in our targeting, detection, and 
identification capabilities. These resources, along with 
enhanced information-sharing agreements, and law enforcement 
partnerships such as the one we have with the U.S. Postal 
Service are critical components in CBP's ability to detect and 
deter the entry of dangerous illicit drugs in international 
mail and express courier environments.
    Specific to the threat posed by fentanyl and other 
synthetic opioids, so far this fiscal year in the mail and 
express courier environments, CBP has made 242 seizures of 
fentanyl, totaling almost 300 pounds. In contrast, in the land 
environment, CBP has made 46 seizures totaling approximately 
494 pounds. So while we encounter more fentanyl by weight in 
the land environment, we make more seizures in the mail and 
express consignment arenas. Furthermore, the average purity of 
fentanyl in the mail and express environment is over 90 
percent, whereas the average purity of fentanyl seized in the 
land border environment is approximately 7 percent.
    Because synthetic opioids represent significant health and 
safety risks to our officers and our narcotics detection 
canines, CBP has deployed throughout our ports of entry a full 
suite of safety and personal protective equipment, as well as 
naloxone, a potentially lifesaving drug used to immediately 
counteract the effects of unintentional exposure.
    In conclusion, CBP will continue to work with our law 
enforcement partners, the international community, and our 
international partners to refine and enhance the effectiveness 
of our targeting, detection, and interdiction measures at all 
ports of entry, including international mail and express 
courier facilities.
    Vice Chairman Hice, Ranking Member Connolly, distinguished 
members of the subcommittee, thank you for the opportunity to 
testify today, and I look forward to your questions.
    [Prepared statement of Mr. Owen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. Thank you very much.
    Ms. Rectanus, you are recognized for five minutes.

                   STATEMENT OF LORI RECTANUS

    Ms. Rectanus. Thank you. Good afternoon, Chairman Hice, 
Ranking Member Connolly, and members of the subcommittee. Thank 
you for the invitation to be here to discuss our report that is 
being released today. That report discussed the efforts that 
CBP and the Postal Service were taking to use electronic 
advanced data to enhance the security of international inbound 
mail. CBP and the Postal Service deserve credit for their 
efforts in this area, but we found they lacked the information 
to know whether their efforts are fully achieving the intended 
purposes.
    For the last few years at the New York International 
Service Center, CBP and the Postal Service have been testing 
the effectiveness of targeting items based on electronic 
advanced data. Through these pilots, CBP uses the data to 
identify about 15 pieces of mail each day that the Postal 
Service is supposed to set aside for inspection. Presenting 
these mail pieces has proved challenging primarily because the 
volume of mail received, how the items are shipped, and in some 
cases the accuracy of the data provided.
    The ISC receives thousands of large sacks of mail every 
day, and each sack could contain hundreds of pieces of mail. 
Employees must often manually sort through these sacks to find 
the individual items. Such a time- and labor-intensive 
understandably can miss things. Since the pilots began through 
the end of 2016, the Postal Service was able to provide between 
58 and 82 percent of the requested items. Recently, the Postal 
Service has begun testing software and hardware to better 
locate requested items.
    Whether the pilots are meeting their goals, however, is 
unknown because the agencies have not developed metrics for 
what success looks like and what might be feasible. Such 
analysis is particularly critical given the pilots expansion, 
which will not only include additional locations but will 
involve greater volumes of mail and associated resources.
    On a broader scale, there remain unanswered questions about 
whether the benefits of using electronic advanced data for 
targeting outweigh the costs or the challenges associated with 
getting the data.
    Regarding benefits, officials report that using electronic 
advanced data could increase efficiency, that is, allow CBP to 
reduce the volume of mail to be inspected while achieving the 
same or better seizure rates. However, while CBP has collected 
data on seizure rates for the pilots, it doesn't have seizure 
rates for other targeting methods, so we don't know how 
targeting based on electronic advanced data compares to other 
targeting methods.
    Regarding costs, neither agency has fully assessed what 
this effort has or could cost. The Postal Service reported that 
it spent about $3 million on hardware and software upgrades and 
additional personnel to identify the small amount of targeted 
mail in the pilots. However, we don't know what additional 
costs might be borne by designated postal operators to collect 
or provide the information or what cost the Postal Service 
could incur when collecting data from these foreign operators. 
Moreover, the Postal Service has not estimated what expansion 
might cost. Given the Postal Service's financial condition, it 
would be good to have a better understanding of these costs 
before proceeding and determining the best way to move forward.
    A considerable challenge that needs to be addressed is that 
the Postal Service cannot mandate the provision of this data or 
guarantee its accuracy. We do recognize that in the last few 
years the Postal Service has worked to increase the amount of 
electronic advanced data, but it is still limited, and its 
accuracy is unknown. If the amount or quality of the data is 
limited, this could also impact the effectiveness targeting.
    In conclusion, the rapid growth in international commerce 
requires a thoughtful, well-reasoned approach that provides 
assurance not only of efficient resource use but also of 
enhanced mail security. Both CBP and the Postal Service agreed 
with our recommendations to assess the pilots' performance and 
evaluate the costs and benefits of using electronic advanced 
data. We look forward to working with them in their efforts.
    Chairman Hice and Ranking Member Connolly and members of 
the subcommittee, this concludes my statement. I would be 
pleased to answer any questions.
    [Prepared statement of Ms. Rectanus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. Thank you very much.
    Ms. Whitcomb, you are recognized for five minutes.

                  STATEMENT OF TAMMY WHITCOMB

    Ms. Whitcomb. Thank you. Good afternoon, Chairman Hice, 
Ranking Member Connolly, and members of the subcommittee.
    The explosion of global e-commerce has led to rapid growth 
in inbound international mail parcels. Unfortunately, illicit 
drugs can hide within this traffic. There is a need for more 
effective ways to monitor inbound mail and find high-risk 
shipments. We believe data analytics can contribute to a 
solution.
    The Postal Service has been working with international 
postal operators to increase the amount of advanced electronic 
data it receives on parcels inbound to the United States. This 
data includes information on the sender, addressee, and 
contents of the mail piece. The Postal Service and U.S. Customs 
and Border Protection are currently conducting a pilot using 
this data, which allows CBP to target parcels more effectively 
for inspection.
    Last May, I testified before the Senate regarding the pilot 
and our work in this area. During that hearing, concerns were 
raised about the safety of postal employees who might be 
exposed to parcels containing dangerous opioids. In July, our 
office started to examine whether we could use advanced 
electronic data to determine the risks to postal employees from 
opioid parcels.
    Coincidentally, at the same time, we joined a narcotics 
trafficking investigation that appeared to involve a Postal 
Service employee. The case was initiated because CBP had seized 
a parcel containing the opioid fentanyl from an international 
shipper to a U.S. address. The investigation remains ongoing. 
However, this is the first investigation where we suspect that 
a Postal Service employee facilitated the illegal distribution 
of fentanyl.
    Using evidence from this investigation, we searched the 
advanced electronic data for more parcels sent from the same 
international address. We found more than 450 additional 
parcels sent between February and June of this year. The 
parcels were destined for locations nationwide, and other 
indicators suggested that many were suspicious.
    We took the analysis a step further to see whether the U.S. 
addresses that received these suspect parcels received other 
international parcels, and we identified an additional 
international shipper that sent parcels to some of the same 
addresses. When we searched the data for the second shipper, we 
found more than 2,400 additional parcels shipped between 
February and June of 2017.
    When we asked CBP, they confirmed they had seized a parcel 
containing fentanyl from this second shipper earlier this year. 
It appeared to us that the second shipper likely shared some 
customers with the first shipper, and in fact, one U.S. 
recipient received a total of 23 parcels from the two shippers. 
Using data analytics, we were able to turn shipping data from 
one fentanyl parcel into information about two suspect shippers 
and more than 2,800 suspicious parcels.
    While our analysis is still ongoing and providing new 
insights daily, a number of opportunities are already clear. 
Analyzing advanced electronic data, in combination with other 
postal databases, could shine a spotlight on international drug 
trafficking through the mail and facilitate prevention efforts 
in the originating countries.
    Additionally, in many instances, parcels from suspect 
shippers can be identified while they are still in transit 
between countries, which should help ensure that they are 
seized at our border. And for those parcels that may get into 
the domestic mail stream, analytics will help law enforcement 
track down the individuals who are trafficking or receiving 
these dangerous opioids.
    All of these opportunities require resources and strong 
collaboration between Federal agencies. We have already met 
with representatives from CBP, the Drug Enforcement 
Administration, the Department of Homeland Security Office of 
Inspector General, the Postal Inspection Service, and the 
Postal Service to share these discoveries and to discuss how to 
work together in the future using analytics.
    We believe this type of analysis is an exciting 
breakthrough for investigating trafficking through the mail, 
but there are a number of challenges ahead. First, more 
resources are needed to capitalize on these techniques, 
including more data experts and tools to generate leads and 
more assistance from law enforcement to follow them up.
    Second, although the amount of advanced electronic data is 
growing, it is still not yet available for all inbound parcels.
    Third, legal barriers to opening parcels may hinder 
investigations given the volume of suspect parcels.
    Finally, and most importantly, the successful use of 
analytics requires moving beyond traditional case-by-case, 
parcel-by-parcel investigative practices and instituting a 
high-level strategic collaborative approach to stop drug 
trafficking through the mail. If these challenges can be 
solved, data analytics promises to help government and law 
enforcement focus on the areas of greatest impact in order to 
prevent these dangerous opioids from entering our country in 
the future.
    Thank you for the opportunity to testify, and I'm happy to 
answer any questions.
    [Prepared statement of Ms. Whitcomb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hice. Thank you very much, and we will now begin our 
time for members to ask questions. And I will begin by 
recognizing myself for five minutes.
    Ms. Whitcomb, how many pieces of inbound international mail 
did the Postal Service receive last year?
    Ms. Whitcomb. I believe the number is about 275 million 
parcels received via inbound international mail.
    Mr. Hice. Do you have any tracking information as to which 
countries those come from?
    Ms. Whitcomb. I think the Postal Service does. I don't know 
if Mr. Cottrell may have some better information on that. I 
don't personally have that with me today.
    Mr. Hice. Okay. Mr. Cottrell, do you keep track of where 
those come from?
    Mr. Cottrell. The Postal Service does, sir. That's not my 
arena, but we certainly can provide that information for you 
afterwards.
    Mr. Hice. Would they also keep track of any increase of 
mail coming from a country?
    Mr. Cottrell. Yes.
    Mr. Hice. All right. So, over the last five years if an 
increase is coming, say, from China, we would know about that? 
Okay.
    Mr. Owen. Yes, sir. If I could just add that, yes, the vast 
majority of the 275 million parcels that came in last year are 
coming from China, and that number continues to increase with 
e-commerce.
    Mr. Hice. Okay. Now, unlike--and I will go back, Ms. 
Whitcomb, to you here. Unlike the Postal Service competitors, 
the Postal Service, post office is not required to provide the 
electronic advanced data to CBP for targeting purposes. Now, my 
question is does this mean--how is this inbound mail sorted? 
Does it have to be done by hand?
    Ms. Whitcomb. How is it sorted?
    Mr. Hice. Well, yes. When you are looking for a potential 
target ----
    Ms. Whitcomb. Right.
    Mr. Hice.--how is that done?
    Ms. Whitcomb. I believe that the Postal Service, as Ms. 
Rectanus mentioned, has to look through parcels and sacks and 
things like that when CBP requests a specific parcel to review. 
And then the Postal Service has to locate that parcel and then 
provide it to CBP.
    Mr. Hice. But that has to be done by hand?
    Ms. Whitcomb. I believe so. Is that correct?
    Mr. Owen. Yes, sir, if I may, yes, it is a very manual 
process. When all the international mail is received, the big 
sacks first come through all the radiation detection equipment, 
so that is the first step. After there are no radioactive 
materials in any of the parcels, then we work to identify those 
sacks in the mail that we want to see, and then those are 
brought to us. We then send them through the x-ray systems, we 
send them through the canines, we manually open them, so 
without advanced data to target ahead of time, it is a very 
manual, very labor-intensive process.
    Mr. Hice. So that is a daunting task.
    Mr. Owen. Yes, sir, it is.
    Mr. Hice. Is there any way that you can possibly under that 
scenario keep up with the requirement?
    Mr. Owen. The volumes are very challenging. We of course 
prioritize the incoming mail based on threat, and we devote our 
resources to those that represent the greatest threat, but the 
volume is overwhelming, yes, sir.
    Mr. Hice. Okay. So you are not able to keep up with what is 
required from CBP? I don't see any way.
    Mr. Owen. But if ----
    Mr. Hice. What percentage are you behind?
    Mr. Owen. Oh, I don't think we have a number as to how much 
we look at because of the different layers that we have, so 
there is, again, advanced targeting when the data is available. 
Those shipments will be placed on hold and physically presented 
to us. And then again, we basically take sacks coming from a 
particular country of interest and start running all of those 
packages through x-rays, through the canines. We physically 
open them, so it is--again, it's a very manual process to keep 
up with the flows each day.
    Mr. Hice. All right. So you can't consistently present all 
the mail to CBP as required, correct?
    Mr. Owen. No.
    Mr. Hice. All right. So is there a memorandum of 
understanding of what is supposed to occur? Mr. Cottrell, this 
is probably best for you.
    Mr. Cottrell. Yes, Mr. Chairman. I do have my operations 
man Robert Raines. He can explain some of the inroads we've 
made in automating some of these processes to try to make it a 
little more manageable for customs.
    Mr. Hice. Okay.
    Mr. Raines. Yes, sir, so we've actually developed ----
    Mr. Connolly. Mr. Chairman, Mr. Chairman?
    Mr. Hice. Yes.
    Mr. Connolly. Just one second. I have no objection at all 
to the testimony of the gentleman. I just would remind you he 
is not sworn in.
    Mr. Hice. He was ----
    Mr. Cottrell. He was sworn.
    Mr. Hice. You were sworn in, yes.
    Mr. Connolly. You were?
    Mr. Raines. Yes.
    Mr. Hice. He was recognized before ----
    Mr. Connolly. Before I got in? Okay. Thank you.
    Mr. Hice.--and was sworn in. Yes.
    Mr. Connolly. Excuse me.
    Mr. Hice. Thank you.
    Mr. Raines. Since May, we've developed technology to scan 
most of these parcels in large sacks, and we automatically run 
them on automation equipment to sort them for CBP, and they--we 
provide them with the single package they're looking for.
    Mr. Hice. Okay. So is there a memorandum of understanding 
that has been signed or will it be signed?
    Mr. Raines. Yes, sir. It was signed.
    Mr. Hice. Okay. Can you provide a copy of that to this 
committee? All right.
    Real quickly, let me go back to Mr. Cottrell here. I want 
to go back to where I was getting to a little earlier in terms 
of keeping track of countries and increased mail or whatever, 
packages coming from China. What percentage would you have any 
idea of incoming international mail comes from China?
    Mr. Cottrell. I'm going to deflect that to Mr. Raines, too.
    Mr. Raines. It's--a significant portion of mail does come 
from China.
    Mr. Hice. Like what does that mean, 10 percent, 20 percent, 
just a guess?
    Mr. Raines. No, it's larger than 20 percent.
    Mr. Hice. Has that number increased over the last five 
years?
    Mr. Raines. Yes.
    Mr. Hice. How much so?
    Mr. Raines. It increases double digits every year.
    Mr. Hice. Okay. Are there any other countries where we are 
seeing increased ----
    Mr. Raines. We see increases from other countries, not as 
significant as China.
    Mr. Hice. Okay. So there is something that would 
potentially raise a red flag, what is going on, why are we 
receiving more from China or is that standard?
    Mr. Raines. I think it's a--there are a lot of low-value 
items that get shipped from China, so we see, from an e-
commerce perspective, that that's a growing industry.
    Mr. Hice. Okay. My time is expired. I will recognize the 
ranking member, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I must say to 
the gentleman, I am very impressed with what you just said 
about China. I knew it was big; I didn't know it was that big. 
That is pretty impressive.
    Is it not true that at most of the fentanyl coming into the 
United States is coming from China?
    Mr. Owen. Yes, sir. I could take that. The fentanyl that's 
coming into the United States has two pathways. There is the 
products that are coming from China that typically arrive 
through the international mail and the express courier 
facilities, and then there is the fentanyl that's coming from 
Mexico that of course enters the Southwest border.
    Mr. Connolly. And what would be the ratio would you say, 
China versus Mexico as a source?
    Mr. Owen. I'm not sure we have a ratio. The purity of what 
is coming out of China is much, much more significant than the 
----
    Mr. Connolly. Right.
    Mr. Owen.--purity of what is coming out of Mexico.
    Mr. Connolly. And more lethal?
    Mr. Owen. And more lethal, yes, sir.
    Mr. Connolly. Yes. Okay. Thank you. While I got you, Mr. 
Owen, the statutory responsibility and authority of CBP with 
respect to interdiction of anything coming into the United 
States is contained in section 211 of title 6 of the U.S. code, 
is that correct?
    Mr. Owen. I assume so sir, yes. I'm not sure the code, but 
we do have the border search authority for everything that 
comes in and leaves the United States, yes, sir.
    Mr. Connolly. Right. It is not the Postal Service's 
responsibility; it is yours?
    Mr. Owen. It's our responsibility, yes, sir.
    Mr. Connolly. That is right. So help us understand how it 
works. When does the handoff go? How does that work? Once you 
have done whatever you do, when does it become the Postal 
Service's responsibility?
    Mr. Owen. Once we clear the parcels, then it turns--becomes 
domestic and it's turned over to the Postal Service, as with 
all cargo. So all cargo, including the mail and parcels arrive 
from foreign, they're presented to CBP for inspection. After we 
inspect and release that cargo, it then gets turned over to the 
carrier, in this case the Postal Service, to take it from 
there.
    Mr. Connolly. And to understand how we do it right now, we 
have got five centers that receive mail from overseas?
    Mr. Owen. We actually have nine international mail 
facilities.
    Mr. Connolly. Nine.
    Mr. Owen. We call them something different, but yes ----
    Mr. Connolly. Okay.
    Mr. Owen.--there's nine facilities.
    Mr. Connolly. And the volume is roughly about a million a 
day?
    Mr. Owen. About a million a day ----
    Mr. Connolly. A million a day. That is ----
    Mr. Owen.--between mail and express.
    Mr. Connolly. Right.
    Mr. Owen. Yes.
    Mr. Connolly. Packages is a subset but a big part of the 
subset, as Ms. Whitcomb points out.
    Mr. Owen. Well, the mail in the Postal Service and the 
express in the express courier facilities, the DHL, FedEx, UPS.
    Mr. Connolly. All right. So you got these nine centers, but 
you're not laboriously looking at every single piece at every 
single center, right?
    Mr. Owen. No.
    Mr. Connolly. Right.
    Mr. Owen. No, we are not.
    Mr. Connolly. How does it work?
    Mr. Owen. The way it works is, again, we perform a risk 
assessment based on what's coming in, so if we have advanced 
data, that data is run through our automated targeting system, 
and it will bounce against different criteria that we have as 
to help us identify those packages that are higher risk. If 
those are high risk, we place them on hold, and whether it's 
the Postal Service or the express consignment company and that 
environment would present those packages to us.
    Outside of the advanced data, the cargo from the mail that 
does not currently have the data, again, it's a manual process 
that is screened for radiation, put on x-ray conveyor belts. We 
open things. The canines will run it, that manual process.
    Mr. Connolly. Right. Now, and I am not making a judgment. 
Based on what we've heard in the testimony, Ms. Whitcomb comes 
along and says we got this new technique, analytics, that 
actually is more efficient than the current system and gives us 
a higher rate of probability of catching fentanyl, which, after 
all, we all want done. Is that correct, Ms. Whitcomb? Have I 
characterized part of what the conclusion of your testimony 
would be?
    Ms. Whitcomb. I would conclude that we believe that the 
analytics that we did identified some ----
    Mr. Connolly. Right.
    Ms. Whitcomb.--additional process.
    Mr. Connolly. But that's a technique not being used by CBP 
across ----
    Ms. Whitcomb. I'd--we are not the OIG that does oversight 
for CBP, so I'm not sure exactly how they do their ----
    Mr. Connolly. Mr. Owen?
    Mr. Owen. Yes, we do that type of targeting, that type of 
post-seizure analysis out at our national targeting center out 
near Dulles Airport. We will take the variables from one 
specific seizure and make connections to identify other high-
risk shipments and then take those appropriate actions.
    Mr. Connolly. Right.
    Mr. Owen. So whether we call it data analytics or post-
seizure analysis ----
    Mr. Connolly. Right.
    Mr. Owen.--it's work that we've been doing for some time 
within U.S. Customs and Border Protection ----
    Mr. Connolly. All right. But Ms. Whitcomb has testified 
that they did something you didn't catch.
    Mr. Owen. Based on the seizure that they worked, their 
review did that, yes.
    Mr. Connolly. Right. And, I mean, it was fairly impressive 
data if it at all--again, I'm not trying to say yours is--I'm 
trying to say, can we improve our detection? And it sounds like 
what Ms. Whitcomb described, we are on to something. We can 
make ourselves more efficient and make it may be less labor-
intensive, while having a better payoff in catching the 
fentanyl coming into the country. Would you agree with that?
    Mr. Owen. I would agree that based on post-seizure work, 
making connections can help us be more effective, and that is 
work that we are currently doing out at the national targeting 
center, that we been doing for many, many years. We'd welcome a 
visit from you, sir, or from any of the members here so we can 
really get into the weeds and show you the great analytical 
work, the counter-network work that we're doing out there.
    Mr. Connolly. Where is this?
    Mr. Owen. It's out near Dulles Airport, sir ----
    Mr. Connolly. Oh ----
    Mr. Owen.--so you're back there ----
    Mr. Connolly.--it would be a welcome thing to have CBP ----
    Mr. Owen. Yes.
    Mr. Connolly.--meet with me a Dulles Airport. We are not 
going there. You are now testifying before Congress.
    Mr. Owen. Yes, sir.
    Mr. Connolly. We will go where we want to go.
    Mr. Owen. Yes, sir.
    Mr. Connolly. But I won't go there. Okay. I think my time 
is up.
    [Laughter.]
    Mr. Connolly. And you are very lucky, Mr. Owen.
    [Laughter.]
    Mr. Hice. I thank the gentleman.
    The gentleman from Iowa, Mr. Blum, is recognized for five 
minutes.
    Mr. Blum. Thank you, Mr. Chairman. And thank you to the 
panelists for being here today. I appreciate your insights.
    Mr. Owen, I believe you said--I wrote down here you said 
this is a very manual process. You also said the backlog 
continues to grow. How much of the process--I am from the 
private sector, so I am interested in this. How much of the 
process is manual today and how much is automated, whether 
through analytics, technology? What are the percentages today?
    Mr. Owen. Well, the percentages, if you look at last year's 
data--so we received 275 million parcels in the mail. We 
received another 98 million through the express courier 
facilities. The 98 million we currently receive the advanced 
information on, okay, so all of that is done through advanced 
targeting. We have the systems controls to present the 
shipments that we've identified as high risk to us.
    Within the 275 million that we've been working with the 
Postal Service on where we had very little advanced data a year 
ago, we now have advanced data coming to us from 18 countries 
and in particular from China, which is helping us to reduce 
from that manual process to a more targeted process based on 
the presence of that advanced data that we can analyze, place 
holds on the shipment of concern.
    Mr. Blum. That is the analytics portion of this, correct?
    Mr. Owen. Yes. So the pendulum is definitely shifting from 
where we had a much more of a manual process before we received 
advanced data to less of a manual process as we receive data 
now from 18 countries and growing.
    Mr. Blum. Of the packages that are targeted, what 
percentage--does every single one of those require manual 
intervention?
    Mr. Owen. Basically, yes. Every one ----
    Mr. Blum. Every single one does?
    Mr. Owen.--that is targeted has to be open and physically 
inspected to determine what's inside. The typical seizure that 
we see in these parcels in terms of fentanyl and opioids is a 
baggie of 200 to 500 grams of white powder, so we're talking 
very small seizures, less than half-a-pound, generally 
manifested as something lawful and legitimate, aspirin, or 
acetaminophen. We have to take the substances from those 
baggies, those white powders, do some field testing to first 
make an additional identification. Then, it needs to go to a 
more structured laboratory within CBP or the DEA to make that 
final determination as to what that white powder is. It can be 
a very time-consuming process for each one of these half-a-
pound shipments that were we're seizing in the mail facilities.
    Mr. Blum. So we want to obviously intercede in these 
illicit drug shipments. What happens, though, when we do find 
illicit drugs? Are we going back to the country of origin? Are 
we trying to find and prosecute the people? Or is there so much 
of this that that can't be done?
    Mr. Owen. When we will make the introductions, the first 
effort that we take is with our criminal investigators, with 
Homeland Security investigations, as well as with the postal 
inspectors. We will then try to process that seizure where we 
can result in an arrest of who was bringing that cargo into the 
country.
    With that as well, we also take the specifics from the 
seizure and it goes into the analytical work that we've been 
speaking of with the IG here as--to help identify further 
targets down ----
    Mr. Blum. You have this funnel of packages, and you winnow 
it down by using analytics?
    Mr. Owen. Yes.
    Mr. Blum. Okay, now, to that portion of the funnel, can we 
use technology so maybe every package doesn't need to be hand-
opened?
    Mr. Owen. You know, that's ----
    Mr. Blum. I mean, is that in the future or is that now that 
we could be doing that?
    Mr. Owen. That is the future. There--you know, the ideal 
end-state for us is to have a technology that can look inside 
the package without having to open it and identify if there's a 
synthetic item in there, a concern to that part. There are 
several manufacturers that are working on that type of 
technology, so if we can have that technology that is automatic 
that will give us an alert that we've got an issue of concern 
within this package, that will be really a game-changer in this 
space that we struggle with.
    Mr. Blum. And that is being developed currently?
    Mr. Owen. Yes, there are several manufacturers that are 
working towards that end with ----
    Mr. Blum. That would be a game-changer, would it not?
    Mr. Owen. It would be a game-changer, yes, sir.
    Mr. Blum. Last question, and if you already answered it, I 
apologize. The only responsibility of the United States postal 
system is to turn over, correct, or to present international 
packages to CBP, correct? That has not been done to the extent 
it is supposed to per policy? Am I correct in that statement? I 
believe I am correct. I just want to know why.
    Mr. Thome. That is not a policy, sir. It's our policy when 
CBP asks for packages for presentation, we present it to them. 
We've gotten much better, as we spoke before. When it was a 
manual process, we had a little more difficulty in finding the 
packages. But since we've automated that process, we've gotten 
much better at presenting CBP the items that they're asking 
for. And we continue to work and apply extra resources and 
automation to make that better.
    Mr. Blum. And I've got 13 seconds left, and I just want to 
say that the United States Postal Service and CBP, I think you 
both do amazing jobs. And I have toured many of the facilities, 
and hats off to you. Keep up the good work.
    And I yield back the time I do not have.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes the gentlewoman from D.C., Ms. 
Norton.
    Ms. Norton. Thank you, Mr. Chairman, and I thank you for 
this timely hearing.
    I want to echo the words of my colleague about the work 
that the Postal Service is doing and the improvements you have 
made.
    I am interested in the most effective way of capturing 
illegal substances. I am concerned that we use 21st-century 
technology. There was technology discussed I think by my 
colleague in his question as well. I am very bothered by the 
increase in overdose deaths from opioids. I mean, I saw the 
heroin epidemic, I saw the crack cocaine, and this notion of 
doubling deaths in a single year could not be more disturbing.
    Commissioner Owen, has there not been an increase in the 
amount of fentanyl seized in inbound international mail?
    Mr. Owen. Yes, there has. We seized about 440 pounds last 
year, and we're over 800 pounds so far this fiscal year.
    Ms. Norton. So that is twice the seizures?
    Mr. Owen. Yes. Yes.
    Ms. Norton. And is that using technology?
    Mr. Owen. Part of that is record-keeping because before 
2016 we did not have special categories for the fentanyl. 
Everything was considered an opioid, and the data would flow 
into the opioid category. Based on what we started to see in 
2015 and '16, we broke out that. So we have better record-
keeping, but ----
    Ms. Norton. So you think it is record-keeping more than --
--
    Mr. Owen. No, I think we can better capture what we are 
seizing in terms of the fentanyl and the synthetics, but I 
agree that there is much more coming in now than there had been 
several years prior.
    Ms. Norton. Now, you have also seen amounts, I understand--
I believe that was in your testimony--an amount seized at the 
Southwest border but less than the increases in seizures in the 
mail and express confinements. Is that the case?
    Mr. Owen. Yes, the seizures from the Southwest border are 
larger in quantity but fewer in number, whereas again the 
seizures in mail and express are much more great in number but 
very small quantities.
    Ms. Norton. But they are purer?
    Mr. Owen. They are more pure, yes, ma'am.
    Ms. Norton. And what accounts for that?
    Mr. Owen. The--because, again, these are chemical compounds 
and there is the ability to make them to different strengths if 
you will, so the products coming from China are much more pure, 
much more dangerous than the products coming in from Mexico 
right now.
    Ms. Norton. Could you tell me how many officers are 
assigned to examine mail at your facilities--at your 
international mail facilities?
    Mr. Owen. Yes, within the international mail facilities, we 
have just over 200 officers that work. Again, the mail 
facilities, of those nine, there are five that are significant 
in volumes. The other four are very, very small.
    Ms. Norton. Now, as I understand, officers are being 
rotated away from the customs districts to go to the Southwest 
border. Is that true?
    Mr. Owen. We have struggling--we are struggling with 
staffing issues in the Arizona ports of entry, as well as 
Southern California, so on a 90-day basis, we have 150 officers 
from around the country that are on temporary reassignment down 
there.
    Ms. Norton. So that such an officer cannot examine 
international mail because he has been sent to the Southwest 
border ----
    Mr. Owen. Right, we have 20 field offices around the 
country, and we take two to three from each field office each 
90-day period, so it's a small impact to the individual 
locations to support the activities on the Southwest border 
that are struggling with their staffing challenges.
    Ms. Norton. Now, again, I'm trying to find the best way to 
get a hold of this problem, and I know that the President's 
fiscal year 2018 budget requested $1.6 billion for construction 
of a border wall. Now, the President has not formally declared 
an emergency or asked Congress for emergency resources to deal 
with the fentanyl crisis, so I suppose this question is for Ms. 
Rectanus. Is that how you say your name? What effect will 
building a southern wall have on stopping fentanyl being 
shipped in the mail or through express carriers?
    Ms. Rectanus. That is not an issue that we have explored, 
so I would maybe refer that to my CBP colleague. GAO has not 
done any analysis of that.
    Ms. Norton. Well, I need to know, how does it get here, and 
if there was a wall, would that have any effect in keeping 
fentanyl from getting to the United States? Who can answer that 
question, please?
    Mr. Owen. As we take efforts to secure the Southwest 
border, that will help prevent the narcotics coming in from 
Mexico. And again, we do have Mexican fentanyl that's coming in 
as well.
    Ms. Norton. Yes, you do, and it is up to you to find the 
most effective way to stop what amounts to an opioid crisis and 
to suggest what is the most--we don't want to have hearings 
that see a doubling every single year. I haven't seen a crisis 
like this, and I have seen some terrible drug crises in my time 
in Congress. So I would like you to--I would like--and I don't 
know which of you is responsible to investigate what is the 
best way to deter fentanyl coming into the United States and to 
at least reduce the opioid deaths in our country, and I would 
ask you to report back to the chairman.
    Thank you, Mr. Chairman.
    Mr. Hice. I thank the gentlewoman. I now recognize the 
distinguished chairman of this committee, who is sitting way 
down there. He ought to be sitting here, but the gentleman from 
North Carolina, Mr. Meadows.
    Mr. Meadows. Mr. Chairman, I thank you for actually 
conducting the hearing and obviously taking the leadership role 
here as I was having to resolve something that actually 
Congressman Heath Shuler and I worked for a long time. He was a 
Member that held my seat, a Democrat, before I came, and we had 
been working on something for five years and it got resolved 
today, and so my apologies for not being here on time. But I 
thank you for your leadership and your help.
    So let me weigh in a little bit, I guess. You know, Mr. 
Owen, you know, I have visited your facility in Dulles, as you 
well know, and certainly have a lot of compliments on what you 
do and the work that you do. We have got a crisis on our hands, 
and we have got to figure a different way of dealing with this. 
So I guess my question to you is if there is an unlimited 
budget, which there is not, I mean, what would you do 
differently today?
    Mr. Owen. Well, if there was an unlimited budget ----
    Mr. Meadows. Because--and let me tell you the reason why I 
ask that because one of the questions when I was sitting here 
listening to this you were saying, well, we're looking at that 
post-seizure, and we're looking, you know, back from a 
historical perspective. But you don't know what you haven't 
caught, so, I mean, you know, how can we do that on the front 
end instead of looking at it in retrospect? And all that is 
great. I think you have to look at it from a historical 
standpoint, but you don't know what you haven't caught, so what 
do we need to do in terms of giving you tools to do this 
better?
    Mr. Owen. Well, I think the most fundamental is to continue 
on the work that we're doing with the Postal Service to receive 
the advanced information. By having the information ahead of 
the shipments' arrival, we can do much greater targeting ----
    Mr. Meadows. And what advanced information are you talking 
about?
    Mr. Owen. The advanced information as to the shipper of the 
goods, the recipient of the goods, the description. There's 
different data sets that we receive ----
    Mr. Meadows. And why would you not have that? We currently 
don't have that with many of the countries from the Postal 
Service because of the international agreements as to the way 
the data is governed. And the Postal Service and the State 
Department could speak to that.
    Mr. Meadows. Mr. Cottrell, I mean, why would they not have 
that?
    Mr. Cottrell. Well, we've made tremendous ----
    Mr. Meadows. I mean, if I ship on anything else, you got to 
have a sender and a receiver, so why would they not have that 
with you?
    Mr. Cottrell. The Postal Service is a leading proponent to 
get more AED, Mr. Chairman, but we do--are faced with certain 
constraints, as the State Department spoke to earlier. We don't 
control what foreign posts mail into this country, so we have 
taken great steps. The 18 to 20 large ----
    Mr. Meadows. So you are saying it is the State Department's 
problem? I want to make sure I am clear. We got all the experts 
up there. I'm going to find out whose problem it is. Mr. Owen 
says it is not his. He says it is somewhere else, so whose 
problem is it?
    Mr. Cottrell. I think it is a combination, sir. It's us 
working with the foreign post to ----
    Mr. Meadows. The buck stops somewhere. Who does it stop 
with? The State Department?
    Mr. Cottrell. I'll let you answer, Mr. Thome, if you want.
    Mr. Meadows. No, hold on. Let me make sure.
    Mr. Cottrell. Sure.
    Mr. Meadows. You are under oath. Is it your fault or is it 
someone else's fault?
    Mr. Cottrell. I don't know that it's anyone's fault, sir. 
It's treaties that are in place that the United States has 
entered into agreements.
    Mr. Meadows. All right. So go ahead and weigh in at the 
State Department.
    Mr. Thome. Thank you ----
    Mr. Meadows. Because I am having a hard time explaining to 
my constituents back home when we have a fentanyl problem why 
the State Department wouldn't look at this a little 
differently. So we have got a treaty that is a problem?
    Mr. Thome. I would echo a little bit what my Postal Service 
colleague said. It's not really that it's anyone's ----
    Mr. Meadows. It didn't work real well for your postal 
colleague, so I don't know that I would echo it.
    Mr. Thome. It's ----
    Mr. Meadows. So go ahead.
    Mr. Thome. It's not really the fault of any one on this 
panel or any of the Federal agencies ----
    Mr. Meadows. Well ----
    Mr. Thome.--that are working this ----
    Mr. Meadows. Well, then tell me whose fault it is because 
we will get them in here and make sure that they are here 
because I think that we have bipartisan interest on this 
particular subject. So whose fault is it?
    Mr. Thome. Well, the issue is that for the U.S. Postal 
Service, according to our treaty obligations, they must accept 
mail from foreign postal services. So unlike the express 
service as a ----
    Mr. Meadows. So we need to un-ratify the treaty?
    Mr. Thome. No, it's not as much a question of the treaty 
that causes us the problem. It's the question of the capacity 
of the foreign posts to provide the data. Now, as I said in my 
testimony ----
    Mr. Meadows. Well, we don't have to receive that. I mean, I 
have looked at it. I mean, it becomes a decision by the State 
Department on what qualifies and what doesn't. Is that not 
correct?
    Mr. Thome. Well, as things stand right now, we accept the 
mail from foreign postal services to facilitate the global 
exchange of mail.
    Mr. Meadows. And so as things stand right now, it is not 
working. Are you required to do that?
    Mr. Thome. As things stand right now in terms of the broad 
mass of legitimate commerce, it is indeed working quite well 
and expanding. We do need to focus on ----
    Mr. Meadows. So you are saying a little bit of drugs along 
with the regular commerce is okay. Is that your sworn testimony 
here today?
    Mr. Thome. I am certainly not saying that, sir.
    Mr. Meadows. Well, that is what it sounded like.
    Mr. Thome. What I'm saying is we need to now focus on 
further convincing posts which are--and again, the time has 
come ----
    Mr. Meadows. So how do I do that? How does a Member of 
Congress--because, listen, this isn't my first rodeo on this 
issue, and I have got major issues with it both from a cost 
standpoint and now from an oversight standpoint. So how do we 
fix it? Because the Postal Service says it is not them. They 
indicate that it is a joint State Department/postal system 
issue. So I need to get to the bottom line. I mean, who do we 
need to--do we need to have Secretary Tillerson in here to 
figure out how to fix it?
    Mr. Thome. Well, we are working already toward fixing it, 
and we are working together to convince other Postal Services 
that it's in their best interest to provide this ----
    Mr. Meadows. So how ----
    Mr. Thome.--and we're succeeding.
    Mr. Meadows. And I appreciate the indulgence of the chair. 
Give me one last question. How are we encouraging other people 
to comply, other countries? How are we doing that?
    Mr. Thome. There's two main avenues through which we do it. 
One is that the U.S. Postal Service is increasingly entering 
into bilateral agreements. I can't speak to those agreements 
because they're ----
    Mr. Meadows. Proprietary. Go ahead.
    Mr. Thome.--proprietary. And then the other avenue is the 
Universal Postal Union where we have been actively engaged in 
helping countries expand their ability to provide this data. 
Once upon a time, they were not interested in this, but that 
has changed. They see the business model ----
    Mr. Meadows. Okay. So let me close because I am out of 
time. The message that you need to take back and I guess Mr. 
Cottrell and I see my friends at the postal system there behind 
you need to take back is the time for us kicking the can down 
the road is over, all right? And we are going to get to the 
bottom of it, and you need to take it to those entities and say 
that now it is raised to the level of attention that we have 
got to deal with it. And we are going to continue to bring you 
back until we fix it. You tell me what you need from a resource 
standpoint, but we are going to fix this problem or we are 
going to take more severe action. Does that make sense? Is that 
fair? So can both of you report back to this committee in 90 
days with an action plan on how we are going to encourage those 
others to comply?
    All right. Thank you, Mr. Chairman.
    Mr. Hice. I thank the gentleman. And again, thank you for 
your leadership in this subcommittee and the full committee as 
a whole.
    The chair now recognizes the gentleman from Missouri, Mr. 
Clay, for five minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    The STOP Act would require the Postal Service to collect 
and transmit the same kind of electronic data to customs as the 
express consignment carriers already provide to customs. GAO 
testified today that Customs and Border Patrol have not 
evaluated the effectiveness of using electronic advanced data. 
So the STOP Act is premature since it assumes the effectiveness 
of using the data before a thorough evaluation of its use has 
been performed.
    But I think there are other problems with the STOP Act as 
well. The STOP Act is based on a fundamental misunderstanding 
of the differences between the Postal Service and consignment 
carriers. Chief Cottrell, is it not true that, as the 
designated postal operator for the United States Postal Service 
is required by international treaty established by the 
Universal Postal Union to accept and deliver mail that is 
shipped to the U.S. from the nearly 200 member nations of the 
UPU ----
    Mr. Cottrell. Yes, Congressman.
    Mr. Clay.--is that correct? Express consignment carriers 
like UPS and FedEx are under no such requirement. They can 
choose their customers and the packages that they are willing 
to deliver. Isn't that right?
    Mr. Cottrell. Yes, Congressman.
    Mr. Clay. Okay. Isn't it also true that UPS and FedEx can 
charge the delivery rates that they want to charge for shipping 
packages, but the Postal Service must abide by the 
international postal rates established by the UPU, is that 
right?
    Mr. Cottrell. That is correct, Congressman.
    Mr. Clay. In addition, unlike UPS and FedEx, the Postal 
Service does not decide whether or not to accept foreign 
packages from mail, and foreign postal operators are the ones 
who accept the packages that the Postal Service is obligated 
under international agreement to deliver in the U.S., is that 
correct?
    Mr. Cottrell. Yes, Congressman.
    Mr. Clay. While express consignment carriers can get the 
data from their customer at the time they accept a package from 
a foreign shipper, the Postal Service does not have the same 
ability to collect that information at the time a package is 
tendered. Isn't that right?
    Mr. Cottrell. Yes, Congressman.
    Mr. Clay. There is also a misunderstanding of the 
authorities and duties of customs and the Postal Service. 
Commissioner Owen, customs has the responsibility to, and I am 
quoting from a statute, ``protect against the entry of 
dangerous goods.'' Do I have that correct?
    Mr. Owen. Yes, sir.
    Mr. Clay. As a result, Customs and Border Patrol has a lot 
of authority to search for and seize international mail and 
packages. Isn't that correct?
    Mr. Owen. Yes, sir.
    Mr. Clay. For example, is Customs and Border Patrol 
required to obtain a warrant prior to inspecting mail or 
packages?
    Mr. Owen. No, we are not. We have border search authority 
that allows us to inspect anything crossing our borders.
    Mr. Clay. Thank you for that response. And, Chief Cottrell, 
under what circumstances may the Postal Service seize and open 
mail packages for inspection?
    Mr. Cottrell. We gain probable cause and we get a search 
warrant from a Federal judge.
    Mr. Clay. So you have to go through the due process of 
getting a search warrant?
    Mr. Cottrell. Yes, Congressman.
    Mr. Clay. Okay. And this is also different from what 
express consignment carriers can do, correct?
    Mr. Cottrell. Yes, Congressman.
    Mr. Clay. Don't they have the authority to inspect their 
customers' packages to determine whether the package contains 
what the customer says it does?
    Mr. Cottrell. They create their own policies, yes, sir. 
They can open their packages.
    Mr. Clay. And that is different from the Postal Service?
    Mr. Cottrell. It's different from mail, yes.
    Mr. Clay. Given that the Postal Service and express 
consignment carriers operate very differently, it does not make 
sense to impose burdensome and impractical mandates on the 
Postal Service in a misguided effort to seek parity between the 
Postal Service and private carriers.
    And so, Mr. Chairman, I think that the STOP Act may be 
premature, especially if we don't have all of the information 
we need to determine if we can--if the Postal Service can even 
do what we want them to do. And so I would ask that we move 
cautiously on any legislation that would impact the operation 
of our Postal Service.
    And with that, I yield back.
    Mr. Hice. I thank the gentleman.
    And the chair will recognize the gentlewoman from Michigan, 
Mrs. Lawrence, for five minutes.
    Mrs. Lawrence. Thank you, Mr. Chair, and my ranking member 
who is here, for this hearing.
    As we know, the opioid epidemic is one of the Nation's 
foremost health crises. And coming from Michigan in 2015, I am 
so passionate about this. There are 2,000--2,000--human beings 
in my State overdosed on opioids, and that is a 13 percent 
increase over the previous year.
    So one of the things I want to be clear about because my 
colleague seems to be pointing the finger at the Postal Service 
that compliance and a sense of urgency in addressing this issue 
is not where it should be. Ladies and gentlemen, this crisis 
has forced all of us in law enforcement and those of us who are 
in the State Department and customs to reevaluate, based on the 
increase in numbers we are seeing and the human part of this 
that has equated to overdose and unfortunately deaths in our 
country.
    Now, one of the things my colleague did a great job 
outlining, there is an international treaty. And what we all 
know as the 192-member countries called the Universal Postal 
Union, the UPU. And being a member of that is not something 
that the Postal Service unilaterally or independently decided 
to join. It is a requirement as a Federal agency to be in 
compliance. So one of the areas we need to look at because we 
do need to have focus on this is through the State Department. 
That is our treaties and responsibility and limitations that is 
required of us by the UPU. The Postal Service must comply to 
those regulations as a Federal agency.
    And while we are bipartisan in saying we must look at new 
processes and are we being efficient, without being in mind, I 
would like to ask a question of Mr. Owen. Can you comment, 
because we are using CBP's EDA. That is what we are using, 
right, to screen our parcels. Am I correct?
    Mr. Owen. The advanced ED ----
    Mrs. Lawrence. EAD.
    Mr. Owen. EAD, the electronic ----
    Mrs. Lawrence. You are using that right now. That is your 
process?
    Mr. Owen. Yes, we screen the advanced electronic 
information to identify those shipments ----
    Mrs. Lawrence. Okay.
    Mr. Owen.--that are at greater risk, yes, ma'am.
    Mrs. Lawrence. Can you comment, is this the most efficient 
process? Has there been any recommendations--when is the last 
time you had an evaluation to see if we are using the best 
technology in comparison to other targeting techniques? 
Because, obviously, we can't keep using the same processes 
considering the impact and the vast seriousness of this issue.
    Mr. Owen. We are constantly refining our targeting systems 
with new information, new sources of information, different 
capabilities that are out there than what had been there 
several years ago. So our targeting has gotten much, much 
stronger over the last several years to identify those 
shipments, be it in mail or the land border or the seaports 
that pose the greater risk. So we continue to strengthen our 
targeting and analytical capabilities that we have so that our 
resources are being directed where they're most effective.
    Mrs. Lawrence. One of the things I want to say here at this 
hearing--and I am going to ask the same question of you Ms. 
Whitcomb--is that so often we will have the representatives of 
an organization come before us and paint us a picture that we 
are doing a great job with the resources we have, but after the 
hearing, we will hear a different story--if we had the ability 
to use new technology, if we had the funding--and that is 
something that I really want to push your agency to be honest 
with us.
    There has been a request for you to report back to this 
committee how can we be more efficient. So through the Postal 
Service, through the State Department, through the Inspection 
Service, be honest with us. This is not an attack of you as an 
organization. This is a bipartisan effort to attack this 
problem. And unless you are honest and provide us with the 
information, we cannot move forward. So I want to ask the same 
question of the Postal Service. What can we do? Are there new 
technologies? How can we use the resources that we are 
expecting in the Postal Service to address this issue?
    Ms. Whitcomb. Based on the work that we've done, we believe 
that data analytics are a really important part of a solution 
to this problem. The data, the advanced electronic data, you 
have heard from the panelists, that is growing. We're getting 
more and more of that data, and I know that CBP, the Inspection 
Service, and our office are looking at how we can use that data 
and how we can use analytics layered onto that data to identify 
these parcels before they ever get into the mail stream, even 
possibly before they ever leave the originating country. If we 
can do that, I think there are some real opportunities there to 
stop these really dangerous opioids from entering the country. 
So I think there's an opportunity to collaborate among the 
panelists that you see here and even others to work together on 
identifying the best way to use data analytics to address this 
problem.
    Mrs. Lawrence. My time is up, and I will yield back to the 
chair saying that I want us as a committee to direct a 
collaboration so that we can have all these parties, not 
individual silos. How can they collaborate because they can't 
exist alone so that we can move forward in Congress and 
supporting a collaborative effort to attack this issue. Thank 
you so much.
    Mr. Hice. I thank the gentlewoman.
    Just before we close, let me just ask a couple of just real 
quick questions. Mr. Cottrell, is the Postal Service working 
with the recommendations from the GAO?
    Mr. Cottrell. We were directed to work with customs to set 
up the metrics and evaluate the effectiveness of the AED in our 
investigative processes, so we will be working with Mr. Owen 
and his team.
    Mr. Hice. Specifically towards those recommendations?
    Mr. Cottrell. Yes.
    Mr. Hice. Okay. And, Ms. Rectanus, let me just real 
quickly, in your report you discussed two pilot programs at the 
New York International Service Center. In both those pilot 
programs USPS agreed to provide EAD to CBP for certain mail. 
One of those pilots--explain what percentage UPS successfully 
provided to the CBP for targeting?
    Ms. Rectanus. Sure. There are two pilots. The first pilot, 
we--when we looked at the presentation data, it did seem like 
Postal Service had gotten better over the period of time 
ultimately averaging about 80 percent ----
    Mr. Hice. Okay. What was the other one?
    Ms. Rectanus.--of the packages presented. The other pilot, 
when we looked at the data monthly, it really varied, but they 
average about 58 percent over this period.
    Mr. Hice. Why the discrepancy?
    Ms. Rectanus. Excuse me?
    Mr. Hice. Why a discrepancy between the two?
    Ms. Rectanus. I think--well, part of it probably had to do 
with the type and the level of data that they were getting from 
the countries that were involved in those pilots, and I think 
partly also it was volume and it was the type of product I 
think that was involved that allowed the Postal Service to be 
able better to identify the particular packages. And again, 
they are only--they were only asking for 5 or 10 packages from 
each of those pilots, so it wasn't a huge number either.
    Mr. Hice. Okay. Now, in 2016, we all know the Postal 
Service reported like $5.6 billion loss, 10 consecutive years 
now with a loss. In light of this, just curiosity between the 
two of you, has USPS and CBP, have you considered the cost and 
the benefits, analysis of increased electronic data?
    Mr. Owen. No, that again is one of the recommendations that 
both agencies agreed with that we need to do more of that to 
take--make sure we're being effective with the data that is 
being provided. So we both did concur with those 
recommendations from GAO.
    Mr. Hice. Okay. So that discussion is going to be underway?
    Mr. Owen. Yes, sir.
    Mr. Hice. Okay.
    Mr. Owen. Yes, sir.
    Mr. Hice. All right. With that, I am going to yield the 
final two minutes to the gentleman from North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman.
    So let me do two clarify things. Is it Mr. Thome? Is that--
what?
    Mr. Thome. Thome.
    Mr. Meadows. Thome. All right. Mr. Thome, the next 
Universal Postal Union meeting is where and when?
    Mr. Thome. The next UPU Congress is an extraordinary 
Congress in Ethiopia in 2018.
    Mr. Meadows. All right. So would it not be appropriate to 
get a couple of members of this committee to go with you and 
accompany you to that particular meeting? Is that something 
that you can arrange?
    Mr. Thome. I certainly could add you to our delegation, and 
you'd be more than welcome.
    Mr. Meadows. All right. So if you would reach out to the 
committee there on doing that.
    Mr. Cottrell, is the postal system willing to provide all 
their postal data so that we can do--retroactively look at all 
these cases? And are you currently doing that?
    Mr. Cottrell. Yes, sir. The Postal Service currently 
provides over 90 percent AED for our outbound product.
    Mr. Meadows. All right. And so from GAO perspective, what 
more needs to be done there?
    Ms. Rectanus. As far as the cost and benefits and sort of 
looking at the pilots' performance, our focus was really given 
the Postal Service's financial situation and this small 
percentage of their revenue and volume that come from 
international mail, albeit growing. What we wanted was some 
kind of united conversation between the folks to say what is 
feasible? What do we think is really effective and what do we 
think is--sort of is the juice worth the squeeze?
    Given that--right now, the pilots have been very, very 
small, and there is a very small number of pieces of mail and 
packages that have been involved, so we would want them to 
identify what percentage of mail should the Postal Service be 
able to present to CBP, and if they aren't, then why not, and 
kind of get that figured out before we expand it fully and move 
on with getting more advanced data if we're not ready to use it 
yet.
    Mr. Meadows. So, Mr. Cottrell, what percentage is 
reasonable?
    Mr. Cottrell. I want to make sure I'm understanding your 
question.
    Mr. Meadows. Well, I mean, you just heard what she said. I 
mean, we've got small pilots. I mean, at what percentage of 
deliverables would be a reasonable percentage?
    Mr. Cottrell. We're providing everything we get, which, as 
of July, was about 40 percent, to customs, so it's up to us and 
customs to work together to identify as much as we can and then 
work to pull that out and get it in front of customs.
    Mr. Meadows. I think we are talking over each other. I will 
follow up. I am assuming that I see a very receptive nod from 
behind you, and so we will work through that together.
    Here is the interesting thing, and I will close with this. 
We need better collaboration between the entities. To suggest 
that one group is responsible and another one is not is like 
telling TSA and all the international travel we have coming in 
here that it is okay to let a terrorist come in from some 
foreign country just because we have an agreement with them, 
Mr. Thome.
    So what we have to do is--this is taking people's lives. 
Let's treat it that way and start to work with better 
collaboration. Does that make sense for all of you to do that? 
Are you committed to do that? Anyone not?
    Let the record reflect everybody answered in the 
affirmative. I will yield back. Thank you.
    Mr. Hice. I thank the gentleman.
    I would like to again extend a thank you to all our 
witnesses for taking time to appear here before this 
subcommittee today and particularly for your patience during 
the voting series.
    The hearing record will remain open for two weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:39 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
